                 United States Department of the Interior

                                   Office of Inspector General
                                        Western Region
                                            Federal Building
                                     2800 Cottage Way, Suite E-2712
                                        Sacramento, California 95825



                                                           Report No. V-VS-NPS-0004-2006
                                                                        September 28, 2006

Memorandum

To:            Assistant Secretary for Policy, Management and Budget
                (Attention: Associate Director for Finance, Policy and Operations)
               Director, National Park Service

From:          Michael P. Colombo
               Regional Audit Manager

Subject:       Verification Review of Eight Recommendations from Our May 2004
               Audit Report No. V-IN-NPS-0004-2003 Concession Management and Fee
               Collection Operations, Virgin Islands National Park, National Park
               Service.

        The Office of Inspector General has completed a verification review of the eight
recommendations presented in the subject audit report. The objective of the review was
to determine whether the recommendations were implemented as reported to the Office
of Inspector General and to the Office of Financial Management, Office of Policy,
Management and Budget. In a memorandum dated June 13, 2005, the Office of Financial
Management reported to the Office of Inspector General that all the recommendations in
the subject report had been implemented and that the audit report was closed.

Background

       Our May 2004 audit report Concession Management and Fee Collection
Operations, Virgin Islands National Park, National Park Service (No. V-IN-NPS-0004-
2003) made eight recommendations to the Superintendent, Virgin Islands National Park
(Park): three relating to concessions management, two relating to handling incidental
business permit (IBP) fees, and three relating to collecting entrance fees.

       In an April 9, 2004 response to the draft of the subject report, the National Park
Service (NPS) concurred with all eight recommendations. Based on this response, we
considered all recommendations to be resolved and implemented.
Scope and Methodology

        The scope of this review was limited to determining whether NPS took adequate
action to implement the recommendations. To accomplish our objective, we interviewed
Park personnel and gathered supporting documentation for the actions taken to
implement the recommendations.

         We did not conduct any detailed audit fieldwork to determine whether the
underlying deficiencies that were initially identified have actually been corrected. As a
result, this review was not conducted in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States.

                                  Results of Review
        Our current review found that NPS implemented Recommendations 2, 4, 6, 7, and
8 but did not take sufficient action to fully implement Recommendations 1, 3, and 5. The
status of the recommendations is summarized in the Appendix.

Recommendation 1: “Identify the level of sub-concession activities operated
through the Park's concessionaires; request concessionaires to provide the Park
with copies of sub-concession agreements for required approval; request
concessionaires to provide the Park with copies of sub-concessionaires financial
reports so that appropriate sub-concession fees can be calculated; and collect the
appropriate sub-concession fees, including prior period fees of about $55,660.”

        In its April 9, 2004 response, NPS stated that a new contract for the major
concessionaire would be completed in 2004 and that under the new contract, sub-
concession agreements would not be permitted. It also stated that all of the sub-
concessionaires had been identified and approved, sub-concession agreements were
current, and monthly financial invoices from sub-concessionaires were being received.
In addition, the major concessionaire paid $57,150 in prior period sub-concession and
franchise fees.

        During our review, we found that NPS identified the level of sub-concession
activities operated through its concessionaires, requested concessionaires to provide NPS
with copies of sub-concession agreements, and obtained copies of sub-concessionaires
financial reports. NPS also collected a total of $57,150 in past due sub-concessionaire
and franchise fees ($55,620 in sub-concessionaire fees). However, NPS had not executed
a new contract for the major concessionaire and was still operating under the same
contract, which expired in 1990. In addition, NPS had not approved three sub-concession
agreements, which expired during 2004, because the sub-concessionaires did not submit
formal agreements for NPS approval. NPS also did not use submitted financial reports to
calculate appropriate fees. As a result, we concluded that this recommendation was not
fully implemented and therefore should be reinstated and classified as not implemented.
NPS should provide the Office of Financial Management with a target date for ensuring




                                             2
that NPS review and approve all sub-concession agreements and use submitted financial
reports to calculate amounts due.

Recommendation 2: “Perform a preliminary review of the annual financial reports
of concessionaires, reconcile the concession fees reported in the financial reports
with the amounts paid by the concessionaires, and collect any additional concession
fees that are determined to be due.”

       In its April 9, 2004 response, NPS stated that the preliminary review of the annual
financial reports would be performed at the park level and reconciled against monthly
franchise fee payments made by concessionaires. NPS also stated that it had not received
$1,532 in underpaid franchise fees that the major concessionaire had agreed to pay.

        During our review, we obtained copies of annual financial reports for 2003, 2004,
and 2005 for the major concessionaire and annual financial reports for 2003 and 2004 for
the other concessionaire (an extension was granted for 2005). We also obtained listings
of franchise fees paid by both concessionaires for 2003, 2004, and 2005. We found that
NPS reconciled the concession fees reported in the financial reports and collected the
$1,530 in underpaid franchise fees. We therefore concluded that Recommendation 2 was
resolved and implemented.

Recommendation 3: “Obtain missing compliance documentation from
concessionaires, establish policies and procedures to regularly monitor
concessionaires' adherence to compliance and documentation requirements, and
conduct and fully document required inspections and evaluations of concessionaire
operations.”

        In its April 9, 2004 response, NPS stated that it experienced lapses in the
concession position after the Concessions Management Specialist retired in 1999.
However, the new Specialist has since completed a 2-year concessions certification
training and has also received certification to perform evaluations. NPS also stated that it
had implemented annual work plans to ensure that concessions compliance and
documentation requirements were satisfied. In addition, U.S. Public Health Sanitarians
perform public health inspections at the park bi-annually, and concessions staff conduct
operational inspections.

        We found that annual workplans had been implemented to regularly monitor the
concessionaires’ compliance and document requirements. However, both
concessionaires continued to submit the annual financial reports after the mandated time
period. The major concessionaire submitted the 2003 reports for its two operations 7 and
9 months late, while the 2004 reports were 45 days and 12 months late. The other
concessionaire submitted its 2003 and 2004 reports 50 and 75 days late, respectively. In
addition, public health inspections should have been conducted twice per year, and
operational inspections three times per year. NPS conducted two public health
inspections for the major concessionaire in 2003, but only one in 2004 and 2005. No
support could be provided for the operational inspections that should have been



                                             3
conducted in 2003, and we found that one was conducted in 2004 and that three were
conducted in 2005. We have concluded that this recommendation was not fully
implemented and therefore should be reinstated and classified as not implemented. NPS
should provide the Office of Financial Management with a target date for ensuring that
NPS requires concessionaires to submit timely financial reports and conduct and
document all required inspections.

Recommendation 4: “Review the fee requirements for all incidental business
permits (IPB) and ensure that existing permit holders and new applicants make
timely payments of the correct fee amounts. The Park was also directed to collect
the $3,050 that was underpaid for prior year incidental business permit fees.”

       In its April 9, 2004 response, NPS stated that concessions staff had reviewed fee
requirements and sent letters to IBP holders requesting fees that were originally
underpaid. NPS also stated that it planned to institute periodic internal IBP audits that
should identify any administrative errors, as well as ensure a timely follow-up to collect
any underpaid amounts.

        During our review, we found that NPS had collected timely payments of the
correct fee amounts based on the official fee schedule in place. NPS collected $1,500 of
the $3,050 that was underpaid for prior year incidental business permit fees because of
compromises that were made based on recalculations and negotiations. As a result, we
concluded that Recommendation 4 has been resolved and implemented.

Recommendation 5: “Create a tracking system to ensure incidental business permit
holders update business licenses, insurance coverage, and other compliance
documentation that may expire during the active permit period.”

        In its April 9, 2004 response to the draft report, NPS stated that in May 2003, it
had hired a Concessions Management Assistant, with the primary duty of managing the
IBP Program. As such, NPS had developed various databases that track expiration dates
of all IBP compliance documents, i.e., insurance coverage and business licenses.

        During our review, we found that NPS created a system to track the expiration
dates of business licenses and insurance policies to ensure IBP holders were notified in
advance to update their business licenses and insurance coverage. However, other
important compliance documents like CPR/First Aid and vessel inspection certificates
were not tracked. As a result, we concluded that this recommendation was not fully
implemented and should therefore be reinstated and classified as not implemented. NPS
should provide the Office of Financial Management with a target date for ensuring that
NPS tracks the expiration dates of all IBP compliance documents.

Recommendation 6: “Ensure that adequate internal controls are in place and
functioning properly for the Fee Demonstration Program. Adequate internal
controls should include limiting access to the cashier drawers, having certain critical
functions (such as the reconciliation of collections and deposits) cross-checked by



                                             4
two Park employees, and exercising a greater degree of supervisory oversight of the
fee collection process.”

        In its April 9, 2004 response, NPS stated that tighter internal control measures
were implemented to include the following measures (a) all extra keys for cashiers'
drawers are kept in a sealed envelope in a safe in the Chief Ranger's office; (b) only the
fee collectors have access to his/her assigned cash drawer; (c) fee collector daily receipts
and remittance reports are checked, counted, and certified by the Fee Program
Coordinator in the presence of the respective fee collector; (d) one person is no longer
allowed to prepare and make deposits; and (e) the Fee Demo operation will be moved
from the Interpretation Division to the Ranger Activities Division.

        During our review, we verified all aspects of the Park’s internal control measures
for the Fee Demonstration Program and found that adequate internal controls were in
place and functioning properly. As a result, we concluded that Recommendation 6 has
been resolved and implemented.

Recommendation 7: “Implement policies and procedures to ensure that the Park
promptly bills tour operators for the entrance (user) fees applicable to their
passengers and revokes delinquent tour operators' permits if they do not promptly
make arrangements for and pay off delinquent Bills of Collection.”

        In its April 9, 2004 response, NPS stated that Standard Operating Procedures for
promptly notifying delinquent tour operators and collecting associated fees were
developed and implemented. Revocation of tour operators’ permits for lack of payment
was part of the Standard Operating Procedure. The Park also stated the normal process
established by NPS guidelines would be followed as usual.

        During our review, we obtained a copy of the NPS Standard Operating
Procedures dated July 2, 2004, and found that the procedures were consistent with the
response outlined in the May 2004 audit report. A review of monthly bills also revealed
that they were issued promptly and the collection process was followed. Accordingly, we
concluded that Recommendation 7 has been resolved and implemented.

Recommendation 8: “Promptly refer delinquent payments from tour operators to
the National Park Service's regional office for collection.”

        In its April 9, 2004 response, NPS stated that it will comply with all applicable
policies that address delinquent payments.

       During our review, we found that timely payments were being made based on
NPS Standard Operating Procedures. Because there were no longer any outstanding
delinquent payments, NPS did not need to make regional referrals. As a result, we
concluded that Recommendation 8 has been resolved and implemented.




                                             5
Conclusion

       We informed NPS officials of the results of this review at an exit conference on
September 13, 2006. The officials concurred with all of our findings. NPS should
provide the Office of Financial Management with information on the actions it will
perform to implement the recommendations by October 31, 2006.

Responding to the Report

       We request that the Office of Financial Management reinstate
Recommendations 1, 3, and 5 as not implemented from the subject audit report and
inform us of the actions to be taken for these recommendations.

       If you have any questions about this report, please contact me at (916) 978-5653.

cc: Focus Leader for Management Control and Audit Follow-up, Office of Financial
     Management, Office of the Assistant Secretary for Policy, Management and Budget
    Audit Liaison Officer, Department of the Interior
    Audit Liaison Officer, Assistant Secretary for Fish and Wildlife and Parks
    Audit Liaison Officer, National Park Service




                                            6
                                                                    Appendix
           STATUS OF PRIOR AUDIT RECOMMENDATIONS

Recommendation       Status                       Action Required

      1          Not            We are requesting the Office of Financial
                 Implemented    Management, Office of Policy, Management and
                                Budget to reinstate the recommendation. The Park’s
                                Superintendent should provide a plan to review and
                                approve all sub-concession agreements and utilize
                                submitted financial reports to calculate amounts due,
                                including target dates for implementation, and titles
                                of officials responsible for implementation.

      2          Resolved and   No further action required.
                 Implemented

      3          Not            We are requesting the Office of Financial
                 Implemented    Management, Office of Policy, Management and
                                Budget to reinstate the recommendation. The Park’s
                                Superintendent should provide a plan to ensure that
                                timely financial reports are submitted and all required
                                inspections are conducted, including target dates for
                                implementation, and titles of officials responsible for
                                implementation.

      4          Resolved and   No further action required.
                 Implemented

      5          Not            We are requesting the Office of Financial
                 Implemented    Management, Office of Policy, Management and
                                Budget to reinstate the recommendation. The Park’s
                                Superintendent should provide a plan to ensure that
                                the expiration dates of all IBP compliance documents
                                are tracked, including target dates for implementation,
                                and titles of officials responsible for implementation.

      6          Resolved and   No further action required.
                 Implemented

      7          Resolved and   No further action required.
                 Implemented

      8          Resolved and   No further action required.
                 Implemented




                                    7
